     Department of Homeland Security

     ��������������������������



     FEMA Should Recover $1.7 Million of Public 

    Assistance Grant Funds Awarded to Audubon 

        Commission, New Orleans, Louisiana 





DD-13-12                                 August 2013

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
                                        Washington, DC 20528 I www.oig.dhs.gov



                                                  AUG 2 2 2013

MEMORANDUM FOR:                        George A. Robinson
                                       Regional Administrator, Region VI
                                       Federal E erg                 nt Agency

FROM:
                                       Assistant   pe      enera l
                                       Office of Emergency Management Oversight

SUBJECT:                               FEMA Should Recover $1.7 Million of Public Assistance
                                       Grant Funds Awarded to Audubon Commission,
                                       New Orleans, Louisiana
                                       FEMA Disaster Number 1603-DR-LA
                                       Audit Report Number DD-13-12

We audited Public Assistance grant funds awarded to the Audubon Commission
(Commission) in New Orleans, Louisiana (Public Assistance Identification Number 071-
U76DM-OO). Our audit objective was to determine whether the Commission accounted
for and expended Federal Emergency Management Agency (FEMA) grant funds
according to Federal regulations and FEMA guidelines.

The Governor's Office of Homeland Security and Emergency Preparedness (GOHSEP), a
FEMA grantee, awarded the Commission $12.3 million for damages resulting from
Hurricane Katrina that occurred on August 29, 2005. The award provided 100 percent
                                           1
funding for 37 large and 44 small projects. The audit covered the period
August 29, 2005, through May 1, 2012, the cutoff date of our audit, and included a
review of 241arge and 18 small projects totaling $10.3 million, or 83.7 percent ofthe
total award, and a limited review of labor cost claims for three additional projects (see
                                                               2
Exhibit, Schedule of Projects Audited and Questioned Costs). As of our cutoff date, the
Commission had claimed $2.2 million, but had not completed all projects.




1
    Federal regulations in effect at the time of the disaster set the large project threshold at $55,500.
2
    We audited the gross amount of $11.6 million awarded before reductions for insurance.




www.oig.dhs.gov                                                                                       DD-13-12
                                  OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


Table 1 shows the gross and net award amounts before and after reductions for insurance for
all projects and for those in our audit scope.

                               Table 1: Gross and Net Award Amounts

                                           Gross
                                           Award           Insurance        Net Award
                                          Amount          Reductions         Amount
                   All Projects         $14,516,039       $(2,218,686)      $12,297,353
                   Audit Scope          $11,618,513       $(1,350,404)     $10,268,109
                   Limited Review       $ 342,683         $(        0)     $ 342,683


During the initial phase of our audit we identified eligibility issues on some of the Commission’s
projects that required FEMA’s immediate attention. As such, we issued a Management
Advisory Report recommending that FEMA address specific issues regarding the Commission’s
legal responsibility for repairs at the Audubon Nature Center on 29 of the 45 (27 large and
18 small) projects in our audit scope. In addition, we also recommended that FEMA address the
fact that the Commission had not started 20 of the 29 Audubon Nature Center projects.3 This
report addresses additional findings on the 45 projects in our audit scope.

We conducted this performance audit between May 2012 and June 2013 pursuant to the
Inspector General Act of 1978, as amended, and according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objective. We conducted this audit
by applying the statutes, regulations, and FEMA policies and guidelines in effect at the time of
the disaster.

We interviewed FEMA, GOHSEP, and Commission officials; reviewed judgmentally selected
samples of project costs (generally based on dollar value); and performed other procedures
considered necessary to accomplish our objective. We did not assess the adequacy of the
Commission’s internal controls applicable to grant activities because it was not necessary to
accomplish our audit objective. We did, however, gain an understanding of the Commission’s
method of accounting for disaster-related costs and its procurement policies and procedures.



3
 DD-13-05, FEMA Should Disallow $7.6 Million in Public Assistance Grant Funds Awarded to the Audubon
Commission, New Orleans, Louisiana, dated January 25, 2013.


    www.oig.dhs.gov                                   2                                        DD-13-12
                             OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                                          BACKGROUND

The Commission is a component of the City of New Orleans (City) that the City authorizes to
administer various museum and park facilities. These facilities include Audubon Park, Audubon
Zoo, Aquarium of the Americas, Woldenberg Riverfront Park, and several other facilities. The
Commission carries out its administration of the facilities through a management agreement
with the Audubon Nature Institute (Institute). The Institute is a private-nonprofit organization
that directly operates the various facilities in the New Orleans area on behalf of the
Commission.

                                        RESULTS OF AUDIT

The Commission accounted for Public Assistance funds on a project-by-project basis as required
by Federal regulations and FEMA guidelines. However, the Commission claimed $427,807 of
ineligible labor costs for debris removal and emergency protective measures. In addition, FEMA
needs to complete the allocation of approximately $1.2 million of the Commission’s insurance
proceeds and correct an inadvertent $76,800 allocation error on the Commission’s insurance
proceeds. FEMA should also deobligate $142,697 of unused funds on completed projects and
put the funds to better use.

Therefore, FEMA should disallow $1.7 million consisting of ineligible labor, unallocated
insurance, and an allocation error; and deobligate $142,697 of funds that should be put to
better use (see Exhibit, Schedule of Projects Audited and Questioned Costs).

Finding A: Ineligible Labor Costs

The Commission claimed $427,807 for ineligible straight-time labor costs for debris removal
(Category A) and emergency protective measures (Category B). Federal regulations at 44 Code
of Federal Regulations (CFR) 206.228(a)(4) state that the “straight- or regular-time salaries and
benefits of a subgrantee’s permanently employed personnel are not eligible in calculating the
cost of eligible work under sections 403 and 407 of the Stafford Act, 42 U.S.C. 5170b and 5173.”
Section 403 of the Stafford Act is for “assistance essential to meeting immediate threats to life
and property”; and section 407 is for debris removal. Additionally, Commission officials told us
that for Hurricane Isaac, which occurred August 28, 2012, FEMA officials specifically told them
that the Commission is eligible for reimbursement of only overtime costs on similar claims. We
verified with FEMA officials that, for Hurricane Isaac, FEMA wrote the projects to approve only
overtime for the Commission’s labor costs for Categories A and B work, thus indicating that
FEMA’s decision was to treat the Institute’s employees as the Commission’s force account
labor.




   www.oig.dhs.gov                              3                                    DD-13-12
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


Employees of the Institute performed the debris removal and emergency protective measures
for the Commission. Institute employees normally carry out the operations of the various
Commission facilities. In essence, Institute employees act as the Commission’s workforce (i.e.,
force account labor), and FEMA defines force account labor as work performed by the
applicant’s own workforce. The Commission categorized part of the straight-time labor as
contract costs ($244,927) and part as force account labor costs ($182,880). Regardless of which
claim category the Commission used, the disaster work represents work performed by its force
account labor because the Institute’s employees perform as the Commission’s force account
labor, and the costs of the straight-time labor for Categories A and B work are therefore
ineligible under FEMA guidance. Further, if these workers were contractors, rather than
employees, we would question as ineligible all of the labor charges—both straight time and
overtime—because Commission officials did not solicit competitive bids for the work or follow
any Federal procurement regulations in awarding a contract for this work.

Commission officials said that after they submitted initial claims as force account labor,
GOHSEP representatives instructed them to submit the costs as contract labor rather than force
account labor. Commission officials also said that GOHSEP representatives told them that the
existing Audubon management agreement with the Institute permitted them to categorize
these costs as contract work and claim both straight-time and overtime labor costs. We
disagree with GOHSEP’s interpretation that the Institute labor was contract labor because there
was no separate contract or agreement specifically for the work. Institute employees
performed work for the Commission, just as they always had. Therefore, we recommend that
FEMA disallow $427,807 of ineligible straight-time labor costs.

Finding B: Insurance Allocations

FEMA should complete its insurance review, allocate the remaining $1,238,599 in applicable
insurance proceeds to the Commission’s projects, and disallow those costs as ineligible. The
Commission received $2.78 million in insurance proceeds for property damages. However,
FEMA has allocated only $1.54 million in actual and anticipated insurance proceeds to the
Commission’s projects. Federal regulations at 44 CFR 206.253(a) require that eligible costs be
reduced by the actual amount of insurance proceeds relating to the eligible costs. FEMA
officials explained that they did not complete the allocations because there were pending
project versions that required insurance review. FEMA officials said that they will have the final
allocation once they complete all the versions.

Finding C: Insurance Allocation Error

FEMA inadvertently made an error in allocating insurance proceeds to Project 13678 that
resulted in a $76,800 overstatement of the total project obligation. We communicated our
observation to FEMA officials and they deobligated the costs. Therefore, we consider this


   www.oig.dhs.gov                              4                                    DD-13-12
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


finding and the related recommendation to be resolved and closed. No further action is
required from FEMA.

Finding D: Unused Funds

The Commission completed eight large projects and claimed $739,392, which was $142,697 less
than the total amount that FEMA estimated and approved for the eight projects. The
Commission completed all the work on the projects by 2010 and does not plan to claim any
additional costs. Therefore, the remaining funds are unneeded and FEMA should deobligate
these unused funds and put them to better use.

Other Matters

GOHSEP paid the Commission $188,965 on five large projects without requiring any supporting
documentation. Of this amount, GOHSEP identified $158,752 as “Undocumented Advances”
and $30,213 as “Unknown Expenditures.” Commission officials stated that they had not
requested these payments and had not received any explanation as to why GOHSEP made
these payments. Commission officials identified these as “erroneous” payments and
segregated these funds in their accounting records. In April 2012, Commission officials
submitted a letter to GOHSEP formally requesting explanations of various payments. In April
2013, GOHSEP responded, stating that FEMA originally designated these projects as small
projects after National Flood Insurance Program (NFIP) flood insurance reductions, and that
small project grant funds were disbursed upon obligation. GOHSEP added that through
subsequent revisions the projects were designated as large projects and that Audubon must
submit documentation to support all project costs, including the previous payments.

FEMA designates project size based on the approved estimate of “eligible costs” compared with
the large project threshold.4 “Eligible costs” represent the estimate of total costs anticipated
for the project that are eligible for reimbursement. Total costs do not include insurance
reductions. As such, grantees should not disburse grant funds to applicants on projects with
estimated total eligible costs before insurance reductions that exceed the large project
threshold. During our review of these payments, we determined that GOHSEP made the
$188,965 payments on projects with total costs in excess of the large project threshold.

In our Management Advisory Report, we identified the need for FEMA and GOHSEP to improve
grant management activities. 5 The payments that GOHSEP made without supporting
documentation or a request from the Commission are another example of how GOHSEP needs

4
 Federal regulations in effect at the time of the disaster set the large project threshold at $55,500.
5
 DD-13-05, FEMA Should Disallow $7.6 Million in Public Assistance Grant Funds Awarded to the Audubon
Commission, New Orleans, Louisiana, dated January 25, 2013.


    www.oig.dhs.gov                                    5                                         DD-13-12
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


to improve its grant management. GOHSEP must review its processes and improve those that
permit these types of payments to occur. We make no recommendations regarding GOHSEP’s
grant management in this report because, in addition to the recommendations on grant
management mentioned above, we have commented and recommended in numerous other
reports that FEMA require GOHSEP to implement policies and procedures to improve its grant
management.


                                    RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region VI:

Recommendation #1: Disallow $427,807 of ineligible force account labor costs (finding A).

Recommendation #2: Complete the insurance review and allocate $1,238,599 of unapplied
insurance proceeds to the total cost of the Commission’s projects and disallow those costs as
ineligible (finding B).

Recommendation #3: Deobligate the incorrectly allocated insurance proceeds of $76,800
(finding C) and put these funds to better use. FEMA deobligated these costs during our audit;
therefore, we consider this recommendation to be resolved and closed. No further action is
required from FEMA.

Recommendation #4: Deobligate $142,697 of unused and unneeded amounts and put these
funds to better use (finding D).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Commission officials during our audit and included
their comments in this report, as appropriate. We also provided a draft report in advance to
FEMA, GOHSEP, and Commission officials and discussed it at exit conferences held with FEMA,
GOHSEP, and Commission officials on June 18, 2013. FEMA, GOHSEP, and Commission officials
generally agreed with our findings and recommendations.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until we receive and evaluate your response, we will consider the
recommendations open and unresolved.


   www.oig.dhs.gov                             6                                   DD-13-12
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security




Consistent with our responsibility under the Inspector General Act, we will provide copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report on our website for public
dissemination.

Major contributors to this report are Tonda Hadley, Acting Deputy Inspector General;
Paige Hamrick, Audit Manager; and John Polledo, Senior Auditor.

Please call me with any questions at (202) 254-4100 or your staff may call Chris Dodd, Acting
Director, Central Regional Office, at (214) 436-5200.




   www.oig.dhs.gov                             7                                    DD-13-12
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


                                                                                                         Exhibit

                           Schedule of Projects Audited and Questioned Costs

                                                 Ineligible     Allocation        Total             To Be
  Project      Project    Net Award                Costs           Error        Questioned       Deobligated
 Number       Category6     Amount              (Finding A)     (Finding C)       Costs          (Finding D)7
Audit Scope Projects:
   13678          E        $ 240,161       $       0               $76,800      $    76,800          $         0
    6868          B            232,372       150,491                     0          150,491                   0
   11548          A            198,020       151,605                     0          151,605               2,410
    3716          G            144,620             0                     0                0              13,650
   18623          G             70,427             0                     0                0               7,036
   14265          B             63,779             0                     0                0              15,036
   13552          E             62,560             0                     0                0                 303
 35 Other
  Projects
  Audited      various       9,256,170              0                     0         0                       0
Totals for Audit Scope    $10,268,109      $302,096                $76,800 $ 378,896                 $ 38,435
Limited Review for Labor Cost Claims:
   13522          B            195,885        65,914                       0          65,914             38,329
    3710          A             83,886        28,522                       0          28,522             55,364
    6847          B             62,912        31,275                        0         31,275             10,569
Totals for Limited
Review                         342,683     $125,711                       0 $ 125,711                $104,262
Insurance Proceeds Not Allocated (finding B)                                 1,238,599
Grand Totals              $10,610,792      $427,807                $76,800 $1,743,206                $142,697




6
  FEMA classifies disaster-related work by type: debris removal (Category A), emergency protective measures
(Category B), and permanent work (Categories C through G).
7
  After the start of our audit, FEMA deobligated the unused funds for projects 3710 ($55,364) and 13522
($38,329).


    www.oig.dhs.gov                                    8                                         DD-13-12
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


                                                                                  Appendix

                                    Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Acting Chief Privacy Officer

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region VI
Audit Liaison, FEMA (Job Code G-13-014)

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

State
Director, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness
Audit Liaison, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness
Louisiana Legislative Auditor

Subgrantee
Senior Executive Vice President, Audubon Commission

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Committee on Transportation and Infrastructure




   www.oig.dhs.gov                           9                                  DD-13-12
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
